<html>
<title> - FIELD HEARING IN NEWPORTVILLE, PA: WORKFORCE DEVELOPMENT: CLOSING THE SKILLS GAP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                  FIELD HEARING IN NEWPORTVILLE, PA: 
             WORKFORCE DEVELOPMENT: CLOSING THE SKILLS GAP

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                           FEBRUARY 26, 2018

                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 115-057
              Available via the GPO Website: www.fdsys.gov
              
              
              
                                 _________ 

                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-677                     WASHINGTON : 2018                   
 
 
              
              
              
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                            C O N T E N T S
                            

                           OPENING STATEMENTS

                                                                   Page
Hon. Brian Fitzpatrick...........................................     1
Hon. Dwight Evans................................................     2

                               WITNESSES

Mr. Patrick Eiding, President, Philadelphia Council AFL-CIO, 
  Philadelphia, PA...............................................     3
Ms. Susan Herring, Interim Executive Director, Center for 
  Workforce Development, Bucks County Community College, Newtown, 
  PA.............................................................     5
Mr. Alex Halper, Director of Government Affairs, Pennsylvania 
  Chamber of Business and Industry, Harrisburg, PA...............     7

                                APPENDIX

Prepared Statements:
    Mr. Patrick Eiding, President, Philadelphia Council AFL-CIO, 
      Philadelphia, PA...........................................    24
    Ms. Susan Herring, Interim Executive Director, Center for 
      Workforce Development, Bucks County Community College, 
      Newtown, PA................................................    26
    Mr. Alex Halper, Director of Government Affairs, Pennsylvania 
      Chamber of Business and Industry, Harrisburg, PA...........    31
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


             WORKFORCE DEVELOPMENT: CLOSING THE SKILLS GAP

                              ----------                              


                       MONDAY, FEBRUARY 26, 2018

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:34 a.m., at the 
Boilermakers Local Lodge No. 13, 2300 New Falls Road, 
Newportville, PA, 19056, Hon. Brian Fitzpatrick presiding.
    Members present: Representatives Fitzpatrick and Evans.
    Mr. FITZPATRICK. I thank everyone for coming, and good 
morning. I call this hearing to order. Thank you for joining at 
today's Committee on Small Business field hearing in Bucks 
County, Pennsylvania.
    Currently, the United States economy is improving, with 
relatively low unemployment and increased job creation. Yet in 
this time of economic prosperity, many small businesses and 
numerous industries are struggling to find qualified workers. 
This lack of qualified applicants is commonly referred to as 
the skills gap.
    During times of economic growth, small businesses struggle 
to compete with large corporations in attracting qualified 
candidates. Similarly, as baby boomers retire, certain 
industries are finding fewer workers entering the industry, 
making it difficult to maintain a steady labor force and 
resulting in unfilled jobs. Manufacturing is arguably the 
industry most affected by the skills gap.
    How does the skills gap affect us in Pennsylvania? There 
are nearly one million small businesses that exist in our 
state. Those businesses employ almost 50 percent of our 
workers. An additional 10 percent of the state's workforce is 
employed by one of the roughly 15,000 manufacturing firms 
operating here. If left unaddressed, the skills gap could not 
only impact these businesses and workers, but it may also lead 
to significant economic spillovers throughout the state in 
general.
    Addressing this issue demands our attention now. Today's 
hearing will allow us to hear from a panel of expert witnesses 
on how the skills gap is currently affecting our state here in 
Pennsylvania. We will also learn about areas for potential 
improvement within our existing workforce development programs. 
I look forward to a hearing from each of our witness today and 
having a productive conversation on this issue, and I would 
also like to take a moment to thank my friend and colleague, 
and Philadelphia Eagles fan, Dwight Evans, for serving as our 
Ranking Member today. He is a true friend, a true partner, not 
only on the Small Business Committee, but in Congress, and 
very, very beloved not just in his district, but in mine here 
in Bucks County as well. I have enjoyed working with him on the 
Small Business Committee and appreciate his dedication to the 
people of Pennsylvania. He is doing a fabulous job.
    Mr. FITZPATRICK. And with that, I yield time to my friend, 
Mr. Evans.
    Mr. EVANS. Thank you, Mr. Chairman, and I also appreciate 
this opportunity of being here with you. Bucks County is one of 
my favorite places, so--not that it is that far away anyway.
    Thank you, Mr. Chairman, for holding this hearing. 
Licensing is a process which the state requires workers to meet 
basic standards at the local level--local and state level 
before they are able to perform a job. While the origin of this 
limit had noble goals of protecting the safety and well-being 
of residents, we can think of instances where the requirements 
have proven burdensome, bear little resemblance to the function 
they were.
    Nevertheless, occupational licensing persists and has 
become ever the more burdensome across the Nation. Since the 
1950s, the number of licensed workers has jumped from just five 
percent of the workforce to nearly 30 percent today. Nearly one 
in four workers, yet not every occupation regulates 
consistently across the states.
    Fewer than 60 occupations are regulated in all 50 states, 
showing substantial differences in which occupations states 
chose to regulate, making the situation worse for workers, many 
of whom are thriving for small business owners, are the fees 
required, training costs, time spent, studying, and testing.
    While the requirements serve a fundamental purpose, they 
are also a barrier to our financial--an occupation, especially 
low income and immigration workers.
    Today's hearing will give us the opportunity to hear more 
about the genesis of professional licensing and the evolution. 
Though this issue is one for the states to take up, it is 
nevertheless important for all of us to bring it up to the 
forefront because it has effects and can bring guidelines into 
federal law.
    Licensing requirements have exploded to a new field, some 
that marry regulations and others that raise the question of 
whether there is too much licensing. States have brought powers 
to regulate their workers and have a duty to protect their 
residents. Requiring certain professions to meet strict 
licensing rules only makes sense in that regard. However, we 
must look at the implications of being licensed as 
entrepreneurs and consumers.
    In the interest of time, I would like to ask unanimous 
consent that the entire statement be included in the record, 
and I look forward to hearing from them. I would like to yield 
back the balance of my time.
    Thank you, Mr. Chairman.
    Mr. FITZPATRICK. Thank you, Mr. Evans, and I would like to 
take a moment to explain the timing lights for you. You will 
each have 5 minutes to deliver your testimony. The light will 
start out as green and when you have 1 minute remaining, the 
light will turn yellow, and finally at the end of your 5 
minutes, it will turn red.
    Our first witness is Mr. Patrick Eiding. Mr. Eiding is the 
president of the Philadelphia Council AFL-CIO, elected in 
January of 2002. Mr. Eiding is currently serving his fifth term 
as president of the council, representing over 100 local 
unions. In addition to his responsibilities with the 
Philadelphia Council, Mr. Eiding serves as secretary/treasurer 
of the Philadelphia Building Trades Council on the General 
Board of the National AFL-CIO, and is a member of numerous 
boards and commissions in the Philadelphia area. Mr. Eiding's 
expertise stems from over 2 decades of service as a business 
manager and financial secretary of the Insulators and Asbestos 
Workers Local 14, a local union for which he has been a member 
since 1963. Thank you for joining us today, Mr. Eiding.
    Our next witness is Ms. Susan Herring. Ms. Herring 
currently serves as the interim executive director at Bucks 
County Community College's Center for Workforce Development. As 
an interim executive director, Ms. Herring manages a wide 
variety of training programs, including those offered at the 
college's Advanced Manufacturing Training Center. Prior to her 
current position, Ms. Herring spent over 10 years with the New 
Jersey Chamber of Commerce Foundation. There she served in 
various roles, including program manager, director, and 
executive director of workforce programs. Thank you, Mrs. 
Herring, for being here with us today as well.
    And our final witness is Mr. Alex Halper. Mr. Halper is the 
Pennsylvania Chamber of Business and Industry's director of 
government affairs. In this position, Mr. Halper focuses on 
issues such as labor and employment policy, education, and 
workforce development. In addition to his work with the 
Chamber, Mr. Halper serves the Pennsylvania Minimum Wage 
Advisory Board, the Pennsylvania Workers' Compensation Advisory 
Council, and the governing board of the Pennsylvania 
Compensation Ratings Bureau. And again, Mr. Halper, thank you 
for joining us as well today.
    And with that, Mr. Eiding, you are recognized for 5 minutes 
to deliver your statement.

 STATEMENTS OF PATRICK EIDING, PRESIDENT, PHILADELPHIA COUNCIL 
  AFL-CIO, PHILADELPHIA, PA; SUSAN HERRING, INTERIM EXECUTIVE 
   DIRECTOR, CENTER FOR WORKFORCE DEVELOPMENT, BUCKS COUNTY 
 COMMUNITY COLLEGE, NEWTOWN, PA; AND ALEX HALPER, DIRECTOR OF 
   GOVERNMENT AFFAIRS, PENNSYLVANIA CHAMBER OF BUSINESS AND 
                    INDUSTRY, HARRISBURG, PA

                  STATEMENT OF PATRICK EIDING

    Mr. EIDING. Thank you. Good morning, and I thank you for 
the opportunity to discuss workforce development.
    As was noted, my name is Pat Eiding and I am the president 
of the Philadelphia Council AFL-CIO, representing over 150,000 
working families.
    I am proud to say that I have been on the board of the 
Philadelphia Works Incorporated since 2002 and I am currently 
on the Executive Committee. I also have the pleasure of serving 
on the board of the Pennsylvania Workforce Development. I am 
the only labor person, by the way, who was ever been on the 
National Association of Workforce Board, which normally is put 
together of all corporate people because that is what workforce 
is generally about. They are the people that hire the people, 
but being a labor person on that board has been, first of all, 
an honor and, I think, an opportunity to mesh the two areas 
that are very important as far as putting people to work.
    So what NAWB's responsibility and our main role in D.C. is 
about lobbying for money for workforce, and of course, for 
jobs.
    Since the focus of this hearing--excuse me while I get rid 
of these. Since the focus of this hearing is on workforce 
development, I must begin by requesting that you and your 
colleagues in both chambers continue to fund the Workforce 
Innovation and Opportunities Act, WIOA. I also would ask that 
you maintain the conditions for Pell grants that allow for the 
ability to benefit without the need of having a high school 
diploma before you use a Pell grant. For example, short 
programs in community colleges and also training programs, 
programs such as Pell for skill development in short term 
programs. Also, I would ask that we maintain a focus on 
registered apprentice programs. Additionally, we will need more 
money for adults for infrastructure job training.
    One of my biggest concerns is the level of proficiency in 
math and reading our students are graduating with. In some 
cases, even graduates of CTE schools, which are the best in 
Philadelphia, are at a sixth or seventh grade level for both 
reading and math. We need to increase education funding for 
these programs to better prepare these students for graduation.
    The building trades, especially the building trades in 
Philadelphia and surrounding areas, have the best training--
some of the best training programs in the country, but our kids 
can't qualify for the apprentice program. This is also a 
problem at the Philadelphia Shipyard, where they have an 
apprentice program. At seventh grade math and reading as a 
young person, a young person would not be able to keep up with 
the training needed to become a journey person.
    Finally, we need more engagement and commitment from 
employers, both large and small, so that we can perform the 
special training needed for their employees, such as 
internships and apprenticeships. Where we have meaningful 
collaboration, jobs are made for--lifetime sustaining jobs are 
created. The collaboration is so important.
    Areas of concern, I would include re-entry persons, 
veterans, and we certainly could use some help to fund our very 
successful Helmets to Hardhats, which is for veterans coming 
out and looking for jobs.
    I want to step off of my written text for a little bit to 
kind of emphasize a couple of points. One of them is the 
employer engagement. I know through the years in Philadelphia, 
and we are starting to see great engagement by the 
Manufacturers Council, some other areas that are starting to 
pay a little bit more attention to workforce. One of the 
hurdles we have had for many years is folks are looking at 
workforce development like it is our grandfather's unemployment 
line. That is not the case anymore. I know in Philadelphia we 
have an executive director that is every engaged on how we sit 
down with employers, potential customers to workforce to try to 
see what we can do to not only suggest that they use more folks 
from our workforce to applicants, but also how we can engage 
those applicants to be more ready for the particular companies, 
especially in the manufacturing area where in various meetings 
we have had with manufacturers, some of the biggest concerns 
are what we have termed soft skills. That is a broad scope, but 
folks who you will recognize the need if they go to work to be 
to work on time and work every day, be able to work with other 
people. Those kinds of things are not coming out of our 
education system, and I don't know if it is because the world 
has changed as far as parental guidance or some guidance. I 
know money is a big reason. We don't have the guidance 
counselors and what have you in school.
    More recently, we have--I have met with the Philadelphia 
School District to talk about how we can get into the school 
system before kids graduate. If they--and listen, kids can't 
afford to go to college. Many kids can't afford to go to 
college, but they don't know about the other pathways. And if 
we can cull that energy from kids who are thinking about--
whether it be the trades or working at the shipyard or working 
at the helicopter plant up in northeast Philly, that we could 
do something to make sure we massage their mass skills and 
their meeting skills.
    In the days of vocational schools, those things as far as 
academics were the things that were guided the most, whatever 
was going to be needed in that field, that pathway. So I think 
that is an area where we have to really concern ourselves with, 
because what we wind up with if we don't, many young folks from 
the age of 18 to 28 that are scrambling for a job, and they may 
very well be high school graduates, but not able to pass a test 
for either the shipyard or the apprentice programs. And that is 
something we have to fix if we are ever going to get not only 
those folks to work, but the employees that the companies need 
when they want to come into our area.
    Thank you very much.
    Mr. FITZPATRICK. Thank you, Mr. Eiding.
    Ms. Herring, you are now recognized for 5 minutes.

                   STATEMENT OF SUSAN HERRING

    Ms. HERRING. Thank you. Good morning, Representative 
Fitzpatrick, Representative Evans. Thank you for the invitation 
to provide testimony on this very important topic.
    The Center for Workforce Development at Bucks County 
Community College works with local businesses to provide 
customized training to build the skill level of their current 
employees. Our offerings include a large range of topics, 
including industrial safety, computer applications, Lean Six 
Sigma, and leadership academies, to name just a few. These 
programs help local businesses thrive by providing a highly 
skilled workforce. We train approximately 2,800 incumbent 
workers a year, and partner with over 50 companies, with 80 
percent estimated to be small businesses. Our clients have 
access to WEDnetPA funding through the state, as well as 
Incumbent Worker Training funding through the Bucks County 
Workforce Development Board. Both are excellent programs that 
give preferential treatment to small businesses, and bring 
significant value to our business partners. We also work 
closely with businesses to help mitigate the shortage of 
skilled workers in manufacturing.
    As retirements loom large, more well-trained entry level 
employees will be necessary to feed to manufacturing businesses 
to keep them thriving in our local economy. Bucks County 
expects to see nearly 3,000 new jobs in advanced manufacturing 
in the next 10 years. Because of this, the college, in 
collaboration with the County of Bucks and local manufacturing 
companies, developed and launched the Metalwork Training 
Program in 2014. Due to the success of this program and in 
response to employer demand, the college launched the 
Industrial Maintenance Training Program in October 2016. Both 
programs provide opportunities for students to earn industry-
recognized credentials, and both programs put a great deal of 
emphasis on employability skills training and placement into 
good-paying jobs. Today, we have trained approximately 170 un- 
and under-employed students and have a job placement rate of 
over 92 percent. The average starting wages are between $15 and 
$18 per hour, plus benefits, with the opportunity to earn $40 
to $50,000 per year within the first couple of years. Once 
employed, students have the opportunity to continue their 
training by entering OJT positions, apprenticeship programs 
and/or continuing their education at Bucks.
    Manufacturing is alive and well in Bucks County and the 
demand for skilled workers is higher than ever. In fact, our 
recent Metalwork cohort graduated 11 students, and our partner 
companies had 33 job openings, providing for a competitive job 
market favoring skilled job seekers.
    Bucks is serving the business community by building the 
workforce pipeline and connecting a new generation to the high-
priority occupations in manufacturing. Approximately 28 percent 
of our students are under the age of 24, 50 percent under 30, 
and our average age is 32.
    We are continuing our efforts to close the skills gaps by 
expanding our 12-week Metalwork Training Program to serve the 
Upper Bucks population of job seekers and manufacturing 
businesses. The pilot cohort begins on February 26, today, and 
we are applying to the county for CDBG funding to support 
future training.
    As with all workforce development programs, our programs' 
success begins and ends with the symbiotic relationship we have 
built with the manufacturing community. Our business 
partnership has grown from an original 20 manufacturers to over 
70, spanning Bucks and surrounding counties. The college is 
very thankful for the federal programs that have provided 
funding to train individuals who most likely would not have 
been able to afford the classes. The training programs are 
strongly supported by the County of Bucks, through past CDBG 
funding, and by the Workforce Development Board through 
Individual Training Account funding and currently, a U.S. 
Department of Labor grant.
    Our students come to us facing barriers to employment, and 
many of them are dealing with personal challenges that have 
limited their ability to find financial stability, such as 
addiction, homelessness, incarceration, single parenthood, and 
disability. The college's pre-apprenticeship programs have 
truly been life-transforming opportunities for these 
individuals. Supportive family and friends attend our 
graduation ceremonies, and it is humbling to receive their 
heartfelt thanks for giving their loved ones a chance to be a 
part of something that will forever change their lives. 
Continued funding of Bucks County Community College's pre-
apprenticeship training programs is critical to sustaining our 
work that has brought successful outcomes to so many of our 
residents, while at the same time closing a skills gap that is 
essential for the continued success of our small manufacturing 
businesses in the region.
    Thank you very much.
    Mr. FITZPATRICK. Thank you, Mrs. Herring.
    Mr. Halper, you are recognized for 5 minutes.

                    STATEMENT OF ALEX HALPER

    Mr. HALPER. All right. Thank you very much, Congressman 
Fitzpatrick, Congressman Evans. I really appreciate the 
opportunity to be here today. I have submitted my full 
testimony for the record, so I will just do a brief overview. 
Congressman, you have already handled the Eagles shout-out, so 
I will skip over that. But it really is a pleasure to be here, 
and I think it has been helpful for me to hear the testimony 
from my fellow panelists here, and I think the make up of the 
panel really by itself demonstrates how we can all kind of work 
together to address this very real and serious challenge of 
addressing the skills gap, and it will require a very concerted 
and coordinated effort between the labor community, the 
education community, employers, policymakers. So it is a real 
pleasure to be here.
    A lot of the points that I would emphasize, I think, have 
already been described today, and are really becoming just part 
of the general conversation. We do have a very significant 
skills gap. We hear from employers all over Pennsylvania--and I 
guess just by way of introduction, I am with the Pennsylvania 
Chamber of Business and Industry. We are the statewide Chamber 
of Commerce. We have over 9,000 employer members all over 
Pennsylvania, and this issue, probably more than any, is a 
common thread among employers in Pennsylvania really regardless 
of industry or region or size, one of the most significant 
challenges they have. It is what we hear anecdotally from 
employers, but also something that is a very common feedback on 
surveys that we conduct among our business members. We conduct 
an annual economic survey and workforce challenges are always 
among the most serious ones that we hear from with respect to 
what--the kinds of challenges employers face.
    We also conducted a more--sort of a deeper dive survey of 
Pennsylvania employers last year, trying to get a little more 
background into workforce development, and unfortunately the 
responses were not surprising. Over half responded that it is 
either very or extremely difficult to recruit qualified 
candidates with appropriate skills training or education to 
fill the workforce needs of their company. Most believe the 
problem has gotten worse, and even more daunting, the vast 
majority believe the problem is only going to get worse. I 
think only 2 percent of respondents believe that it is going to 
become easier to recruit candidates, so there is not much 
optimism unfortunately within the business community to--for 
the situation to improve. So again, those responses were not 
really surprising.
    We also asked a series of questions, and this gets to a 
point that I think Mr. Eiding mentioned. We asked employers 
well what are you doing to address your own workforce 
challenges in terms of participating in apprenticeship programs 
or internal training, internships, and we took those responses 
and sort of cross referenced them with employers who were 
experiencing their own workforce challenges. And I guess this 
should be--shouldn't have been surprising, but we found a very 
clear correlation between employers who are very active in 
workforce and job training programs, spending the money, making 
the commitment, working with the education community, and those 
employers that are experiencing less difficulty addressing 
their workforce needs. So for employers to think that engaging 
in workforce and working with educators or school districts, we 
are trying to get past the point of employers feeling like that 
is community service or that is--it is philanthropic to lend 
your expertise to education. It is in your own best interest--I 
mean, that is important, too. That should be a motivator, but 
as an employer, it is within--it is in your best interest to 
engage in these activities, and that is the message that we are 
really trying to emphasize with employers in Pennsylvania. At 
the end of the day--and we need partners with organized labor, 
with policymakers, with educators, but the employer community 
has to sort of lead the charge.
    The one point--and Mr. Eiding kind of mentioned this as 
well, the one sort of caveat to that, employers, whether they 
are active or not or would like to be, are extremely 
frustrated, for lack of a better word, with this soft skills 
deficit they see. A lot of employers say look, I am willing to 
make the investment in job training and devoting hours to 
working with school districts or community colleges so that the 
pipeline between what the business community needs and what the 
education community is putting out there, trying to align 
those. They are willing to make that commitment. Where they 
feel they are not qualified or don't have the ability is 
teaching showing up on time, taking direction from a manager, 
working with others to achieve goals, communicating 
effectively. A lot of employers say I can't teach that. That 
needed to be taught years ago. That is why we consider it a 
significant workforce development issue to encourage youth 
employment.
    I know this is something Congressman Evans, for much of 
your career, have helped in Philadelphia, summer jobs for kids. 
I think when you look at workforce development, that cannot be 
overlooked. These are skills that individuals often learn at 
those summer jobs or those part-time jobs. So if we can 
encourage and help facilitate that type of employment for 
perhaps sort of lesser-skilled jobs that are often filled by 
younger Pennsylvanians, that is an important part of this 
equation.
    So again, thank you for the invitation, for the latitude 
with my timing, and I am happy to answer any questions.
    Mr. FITZPATRICK. Thank you, Mr. Halper.
    I want to start by thanking you all for being here. Just so 
you know how this whole process works, your testimony gets 
entered into the Congressional record. It is something that 
Dwight and I bring back to our Committee.
    It is really important, because I what this issue in 
particular, when it comes to economic growth, I don't think 
there is anything we can address immediately that would be more 
important than this. There is roughly 6.1 million or so 
unfilled jobs in this country. Most analysts tell us that the 
cause of that is essentially two main reasons. Number one is a 
skills gap, which we are discussing today. Number two, in many 
of these jobs inability to pass a drug test linked to the drug 
epidemic that we are facing is also a big factor.
    So we have questions specific to your testimony, but I want 
to start by just throwing out to the three of you, from a 
30,000 foot level, clearly you are working in this area day in 
and day out. You are eating, sleeping, and breathing this 
stuff. That is what Dwight and I want to glean from you is from 
a federal legislative perspective, from a federal policy 
perspective, whether it be on the Small Business Committee or 
any other committees, when we go back--today after this hearing 
we are going back down to D.C. What is it, as far as federal 
legislation and federal policy, that we can do that will have a 
significant impact to help us move the ball forward to close 
the skills gap?
    Mr. Eiding, you mentioned several things regarding Pell 
grants and education, and is there sort of a to-do list right 
off the top here that we can take back with us and start 
working on?
    Mr. EIDING. Well--and I think I alluded to it in my words 
that the main thing that I would beg for right now is that we 
make sure that your colleagues and the colleagues in the Senate 
realize the importance of this and the importance of funding 
it, because right now, we are at a gap where my associates on 
NAWB, the National Association of Workforce Board, are starting 
to see some negative approaches to training. And you know, the 
Pell situation has been something that is misunderstood for a 
long time, because it primarily--Pell is for grants for people 
going to college, but there are a lot of opportunities for 
training that can be done through the community colleges and 
through training programs by using that grant, and being able 
to be that flexible with that grant. I think it is open now, 
but there is some discussion about closing that back down until 
it only applies to the folks with the high school education, 
for example, and that certainly would limit things.
    I mean, there has been a terrible, terrible gap in our 
opportunities for folks who don't have a high school education 
or college education, because so many jobs went away, but with 
manufacturing starting to rise again, and I am a believer that 
it is going to with what we have here as far as energy and 
natural gas and those things. Folks are going to want to come 
to places like Philadelphia and Pennsylvania to put their 
company, but they have this lack of available workforce.
    And so the two things that we, you know, at least where I 
am coming from, is the schools--funding the schools, and I know 
this goes through the states and what have you. The schools 
have to be funded so we can start programs that will work 
there.
    I think in your--for your take back to Washington, the 
funding is so important. Listen to what is happening in the 
areas where folks are doing things. And I also alluded 
collaboration. On this workforce board, every year we have a 
forum down in Washington and we give prizes for folks that are 
doing good work around the country. I will tell you that every 
time we have gone through a prize that has been effective in 
their areas, it has been through collaboration. You know, not 
the least being Exxon in Texas and many companies like local 
hospitals where they invest some money into, you know, 
customized training. Areas where there are military 
installations, you know, we have a tremendous need, you know. 
Back when me and dirt were formed, when you went into the 
service you usually had a job and then you left the job to go 
into the service, you came back to the job. Most of these young 
folks that are going into the service today didn't even have a 
job to start with, so when they come back, you know, besides 
all the difficulties they have already had--and certainly the 
wars are a terrible, terrible traumatic situation to begin 
with, and not have a place to go to work. And so in areas that 
I have seen some great work is areas where folks are coming out 
of the service into the civilian world and there are 
opportunities right there. You know, hopefully there are 
opportunities for them back home also, but at least this is--
you know, it is like a jumpstart.
    Funding these things, you know, Helmets to Hardhats, you 
know, primarily is being funded by the unions that fund their 
own apprentice trainings, but Helmets to Hardhats is just what 
it says. It is taking folks out of the service and giving them 
a job in the trades.
    So funding for these things is very important, and I think 
what happens, we get caught in that abyss down there where 
there are so many things that need to be funded, but to come 
together. I mean if, in fact, the government and the President 
are going to start doing something with our infrastructure, we 
are going to have to train some people, and for every aspect of 
that. You know, the trades can step forward but we have to have 
people who can go in. I mean, when you think about a young 
person being forced into a trade with a seventh grade reading 
and math, even if we force them all the way up the line of 5 
years, when they get out on the working world, it is not the 
union that pushes them to work or keeps the worker, it is the 
employer. And there is no employer that is in business--not in 
business to make money and he is not going to keep anybody who 
is not able to keep up with everybody.
    So what we do is we push folks to failure instead of in 
their junior years and maybe even in their sophomore years, 
getting ready for these pathways because let's face it. More 
and more folks are not going to be able to go to college. So 
funding--I just keep repeating it to you. Funding, funding to 
your colleagues. Don't let them push this aside, you know. The 
WIOA is an acronym that sounds really neat, but what is behind 
it is funding for training. So that is the best message I give 
you at this point.
    Mr. FITZPATRICK. Thanks, Pat. Ms. Herring?
    Ms. HERRING. Yes, I have to agree with Mr. Eiding. A lot of 
our funding for our training has come through WIOA through 
federal workforce funding, and what we are finding with our 
small businesses, most of the manufacturing companies that we 
work with would be, I believe, considered small businesses here 
in our region. And not only are they facing the skills gap with 
their skilled workers getting ready to retire, but trying to 
get new people in who are really coming in at a very entry 
level place. They have to have--they have to put the skilled 
worker with the entry level worker and continue that training 
when that person starts at the company. So it is a lot of 
resources from the company that they are putting into skilling 
up the next generation of workers. It hasn't been a natural 
progression where the workforce just kept turning over, because 
for several generations, maybe two, people didn't go into 
manufacturing. So they are really caught in a hard place and as 
long as we can continue training these entry level workers 
without hitting our small manufacturers' pocketbooks, let's 
say, I think that will continue the flow of entry level workers 
into those businesses.
    So I do think it is really important to continue that 
funding.
    Mr. FITZPATRICK. Thank you, Ms. Herring. Mr. Halper?
    Mr. HALPER. Well I think there are a few areas, and in 
terms of funding for workforce development programs--and I 
think there is a renewed focus in Harrisburg on really getting 
a handle around the programs that already exist. There are a 
number of different departments and agencies in state 
government that fund workforce development programs, and a lot 
of them are doing very tremendous work. But there is some 
redundancy, there is some duplication, and at the same time--
and I don't think funding levels and looking at how existing 
funding is being invested have to be mutually exclusive, but we 
want to be sure that programs and funding are being utilized as 
efficiently and as effectively as possible, and that 
departments and agencies don't kind of stay in their silos.
    So I know there is renewed focus on coordination at the 
state level, and hopefully that is something that continues to 
be a focus at the federal level, and the points made about even 
beyond the existing challenges and skills gap, hopefully there 
is additional funding and--for infrastructure and this 
challenge, both bad and some of the demographic realities with 
our current workforce, this is going to become exponentially 
more difficult in the years ahead.
    So that, I think, to the earlier point about youth 
employment and how that can help facilitate the so-called soft 
skills that improve employability and career readiness as kids 
get into high school and post high school and post secondary 
education, this is obviously very broad, but just job creation 
in general. And especially for our smaller businesses, policies 
at the federal level that are conducive to job creation at that 
level I think in the long run is probably the most important 
thing we can do.
    I would also point out--and this is something that I 
applaud the House of Representatives for passing, I think, last 
year, reauthorization of the Perkins Act. It was, I think, a 
great demonstration of bipartisanship. It passed the U.S. House 
unanimously and is pending in the U.S. Senate, and we are very 
hopeful that your colleagues in the Senate will take up that 
legislation and pass it. But that was very positive legislation 
from our perspective. It hit on some key themes of providing 
discretion at the local level. So many of these workforce 
challenges are really community-based. There might be 
similarities community to community and state by state, but 
what you are really looking for is local employers working with 
local partners in education, in the labor community, and 
policymakers and others, and we need policies at the federal 
and the state level to help ensure that those--that there is 
discretion and latitude at the local level to carry out those 
programs that best sort of fit the needs of the community. So I 
would applaud the U.S. House for passing that bill, and we are 
hopeful it will ultimately be sent to the President.
    Mr. FITZPATRICK. Thank you, Mr. Halper, and I recognize my 
colleague, Mr. Evans, for questioning for 5 minutes.
    Mr. EVANS. Thank you, Mr. Chairman.
    Mr. Halper, I want to go back--and this question will go 
down to everyone on the panel--the soft skills issue that you 
raised. And obviously, there is a real mismatch with the number 
of opportunity of jobs and matching up, and we now are at a 
point where--is that something that the community colleges, 
voc-ed schools can provide, or is that just things that should 
happen at home? So I am trying to understand, you know, get to 
that objective. So is that something the community colleges, 
the voc-ed, or is that just something that needs to be found 
from home?
    Mr. HALPER. I think it is an all-of-the-above type answer, 
and it is very difficult. Obviously we also have a problem with 
the hard skills, and we have challenges with students not 
meeting math and reading, not up to standard on those levels. 
Those are--and there will always be disagreement over how you 
measure, but there is at least a--sort of a tangible way to 
measure attainment of those kinds of skills. Are you at--
reading at grade level, are you doing math at grade level?
    Soft skills are much trickier. How do you measure it? How 
do you ensure accountability? We would--we advocate for 
policies--education policies that just work those types of 
training into everyday curriculum. But you are absolutely 
right. It is critically important, and probably most important 
that those skills are learned at the home.
    So it really is, more than anything, a partnership between 
home life, education to make sure that, you know, sort of 
learning how to learn and giving kids those just behavior 
attributes that when they go into a workplace, they are able to 
communicate and work with others and take direction, and show 
up. But that is where we really focus on summer jobs and 
unemployment.
    It is really tragic. Unemployment among young Americans, 
and young Pennsylvanians especially, and that is, you know, 
under 18 who are looking for jobs but can't find them. They are 
at all-time highs. And it is especially problematic in 
Philadelphia, Pittsburgh, and other urban centers. And again, 
you know, thinking back to some of your efforts with 
Philadelphia Summer Jobs, Philadelphia Youth Network, I mean, 
there are a lot of advocates for trying to connect young 
Philadelphians and young Pennsylvanians with jobs in the 
summertime, and that is important for many reasons. But I think 
it is most important because those are the jobs where you learn 
if you don't show up on time and you don't show up on time 
consistently, there are consequences. You have to be able to 
take direction from an employer in order to stay on that job.
    So that is--so it is not--you know, it is a difficult 
question because there is no clear answer. It really requires 
everyone kind of working together to make sure at graduation 
time and before that, kids are ready to take on those jobs.
    Mr. EVANS. Does anyone along the panel have any response to 
the question I just asked?
    Ms. HERRING. I do.
    Mr. EVANS. Sure.
    Ms. HERRING. So that is a huge issue, the whole what we 
used to call work ethic----
    Mr. EVANS. Right.
    Ms. HERRING. --issue. The schools can do maybe a better job 
of instilling work ethic by encouraging students to show up for 
school every day and on time, and some of the schools that I 
have worked--collaborated with over my career have allowed up 
to 19 days absences during a school year. That is not teaching 
a young person how to show up every day and be on time, and how 
important that is.
    In our programs, we built in that work ethic or 
employability skills component because when we talk to our 
employer partners, and it doesn't matter what meeting we are in 
with our manufacturing partners, we start talking about the 
hard skills and the conversation always devolves into the soft 
skills. ``All I need is somebody who can show up every day on 
time, able to work with others, and get the job done.'' So we 
built into our 12-week training program a very strict 
attendance policy. We only allow our students to be absent 2 
days, and if they are absent, they have to contact the 
instructor and let them know that they are going to be gone, 
and they have to have a good excuse. And if they are missing 
more than 3 days, we dismiss them from the program. They know 
going into our program that this is a huge component. There 
is--we are not able to advocate on our students' behalf if they 
can't show us that they can show up every day on time. And that 
has been very, very effective and why our job placement rate is 
so high.
    At the same time, we are looking to do more work with our 
high school students as Mr. Halper was talking about work 
experiences, and we have applied for a strategic innovation 
grant that is going to be a manufacturing pathways program for 
high school students. It will be about 90 hours of basic 
manufacturing classroom training, and then a 90-hour job 
internship, paid internship program. And hopefully we get that 
grant, but if we do, we will be working very closely with our 
employers to say to them, `have high expectations for these 
students who are coming in for internships.' You can't just say 
oh, it is just a kid, let's let them--you know, they weren't 
able to get here one day--we will let them slide. We have to 
have high expectations for our young people or they are not 
going to learn those work ethic traits that are so very, very 
important in the workplace.
    Thank you.
    Mr. EVANS. Pat, do you have any----
    Mr. EIDING. Yeah, I would like to touch on it a little bit.
    It--as was said, it is a little hard to put your hand on 
how, where, and when. Obviously there are a lot of folks that 
are growing up that have single parents. They are working. 
There is a lot of time lost there. But it has to start with the 
schools. I mean, we have created some programs to try to 
overcome some of that. The Work Ready Program in Philadelphia 
putting kids to work in the summertime is a fantastic program, 
and I will tell you that, you know, I would hope that folks--we 
have been fortunate to do at least three kids, sometimes a 
little bit more in our small offices, since it started. Work 
Ready is a great program, and Congressman Evans may remember a 
young lady who worked with me by the name of Janet Rider----
    Mr. EVANS. Um-hum.
    Mr. EIDING. --who her background for years was in the 
school system, and the first young folks that we had come to 
work for us with the Work Ready Program, she took the first 
young lady back into another room to talk to her because she 
was dressed for a party. And what she said very clearly was 
there are no bellies or butts in the working world, you know, 
until you go home and get dressed properly, don't come back.
    So that is what we try to do, get folks that know how to 
answer a phone, know how to dress for these jobs. But if we do 
7,000, you think about it, that is just a mere--compared to how 
many kids are coming out of school. And the school systems in 
Philadelphia are basically driving kids where they can to 
college. I think a lot of school systems, they forgot about 
other pathways. Maybe because that is because of the way this 
country went and lost so many jobs, but kids can't all go to 
college today. There has to be more attention to other 
pathways, and part of that I think has to be getting them--
these kids--at the very least, a touch on number one, finances. 
Let's say--I keep going back to dirt, but when I was in grade 
school I was in a parochial school. Beneficial Bank came around 
to all the kids to teach us how to put money in the bank. It 
might have been $2 by the end of the year, but it was an 
education. Those kinds of things. There should be some time 
afforded in public education for what world these folks are 
going into, and basics, you know, how you dress, how you speak, 
those kinds of things in the work world. When we get into 
conversations about building trades apprentices, which in 
Philadelphia is--you know, unfortunately in Philadelphia when 
you speak union, everybody thinks it is building trades. They 
forget about the other 100 that we have in our organization. 
But one of the things that we come up with is how do we help 
these kids get into that class, into those schools? And then we 
can work with them.
    For example, my small local of 500 active employee workers, 
members, give out 200-plus applications, and they are lucky at 
the end of the day that they get less than 100 back. There is a 
reason for that. People are intimidated. People are--have a 
drug problem. There are reasons. The whole idea of getting 
folks into a career, life sustaining career, they have to start 
in the schools, and somehow or another--and I know that is not 
your venue here, but that comes together with it, and it goes 
right to the soft skills. I mean, you know, I was fortunate 
enough to have a tough Irish mom that we didn't have a lot of 
fancy clothes, but they were clean and my hair was combed, and 
I knew how to say Mr. and Mrs. Smith to the people down the 
street. And those things are lacking a little bit, but also in 
the school. You got it in the school a little bit. It was 
subtle maybe, but there was mention too about, you know, when 
you would get into the upper grades. We are going to go to work 
and this is a little different and that is a little different.
    So there is a tremendous amount of work that has to be done 
on that, because our roundtable in the northeast area for 
manufacturers, that is what everybody came back to. Of course, 
my suggestion to them, being a labor person, well why don't you 
join us with the Philadelphia Episcopal Academies who deal with 
kids, Philadelphia Works that deals with kids. Why don't you 
come with us and help get those kids ready, and do it--you 
know, here I am again with that word collaborative, but it is 
an area that is very serious and employers need--just take the 
construction world. If you have a two person job and it is a 
job where somebody is in the air so you need two persons, and 
somebody don't show, that job is without a job today. And you 
know, that is an extreme example, but it happens in the 
industrial world also, you know. Manufacturers have a certain 
amount of things they have to get done. When people don't show 
up or they show up late, it breaks that continuity. So that 
training somewhere in the school system, if we can't get it at 
home and the school system, well then maybe the school 
systems--we got to get more connected with the parents.
    Mr. EVANS. I guess one thing I want to say, and Mr. Halper, 
when you raised that issue, last week Goldman Sachs has 
something called 10,000 Small Business, and the issue I heard 
at the roundtable was the number one issue was the workforce, 
as well relating to soft skills. And the reason I ask that 
question is I don't think we have figured out a way how to make 
that happen. That is my issue about schools, community 
colleges, and home. Because obviously, how do people learn 
things at home? Usually they learn from modeling the behavior. 
That usually is how they learn, from modeling behavior. So you 
know, with this huge gap--we have a gap--is how to mesh that 
up. I don't disagree with all the things you have said. I don't 
know if the Chairman feels the same way. It is probably the 
issue more so than tax policy, regulation, because I hear more 
than anything about workforce. That is the issue that I hear in 
terms of not having the--because your ability to grow is your 
ability to have workers who know exactly what they are doing.
    So I yield back the balance of my time, Mr. Chairman.
    Mr. FITZPATRICK. Thank you, Mr. Evans, and I recognize 
myself for 5 minutes for questioning.
    I just want to throw two ideas to the panel for discussion. 
Number one is the issue of stigma and pressure for kids to go 
to 4-year universities. You know, we can argue about what the 
source of that, but I think the coolest thing we can do to our 
kids is to pressure them to go to a 4-year university, graduate 
with mountains of debt with bleak job prospects on the outside. 
That is a very difficult way to start one's life. And how do 
we--I am curious to get your input on how we can break that and 
start offering this dual track or dual option to students 
starting in middle school or possibly high school to let them 
know this alternative track that they can go down.
    I was down at the sheet metal workers facility in 
Philadelphia. These apprenticeship programs are starting at 18 
years old. I guess they are 5-year programs. They are making 
great money in the program. They are getting college credit for 
the apprenticeship. They are graduating with college credit 
with no college debt, and tremendous salary opportunities. And 
I don't think a lot of kids even know that. I really don't. I 
don't think we are educating our kids in high school. To the 
contrary, many of our high schools, their metric of success is 
gauged on placement in 4-year colleges and universities. So 
right off the bat we are incentivizing--and I don't know what 
the source of this is. We should find out, but these guidance 
offices in a lot of our high schools are incentivized to 
counsel students to do that. So that is my first question I 
want to throw out to you is how we can go about breaking that 
stigma that exists.
    And second is I mentioned before how the six million plus 
unfilled jobs in this country, workforce training and skills 
gap is one big cause. The second big cause is addiction, 
substance abuse and addiction. How big of an impact are you 
seeing in the work that you do every day? We all know the 
devastating human impact that it has, but here we are talking 
about also there is an economic impact as well.
    Mr. Eiding?
    Mr. EIDING. Okay. That is a good array of one question. Let 
me say that the education process has forever and a day for I 
don't know how many years now pushed kids to college, and here 
is the other thing we found out. We had a roundtable the other 
day in Philadelphia the mayor put together. We had a lot of 
folks who run schools, not the least being Swenson School in 
Philadelphia, and they are saying--what they are saying is that 
when they try to talk to kids about other pathways, they are 
not hitting home. And what some of them have found out, the 
parents are part of the problem. When they would have parents 
together and mention trades, they don't want to hear about it.
    So similar to the soft skills, I think this is a bigger 
issue as we talk about it. I guess that is the good thing. We 
get together to talk about it, find out what is going on. You 
know, kids have no knowledge of it. At one time in the public 
education system, there was a pathway that was obvious and--but 
I think the other thing that is unfair, and I brought this up 
the other day, there were many jobs. You could--in 
Philadelphia, you know, the neighborhood I grew up in 
Kensington, you could either walk or take the 60 trolley car 
and go to a job without even dropping out of school, those kind 
of--not that we are looking for that, but folks didn't even 
think about they were going to be able to go to college because 
it wasn't there.
    So there has to be a better dialogue education with parents 
and with the teachers to drive these kids in a softer direction 
so they know about stuff, and as we just talked about, they not 
only get credits for college, there are four or five you get an 
associate degree with Rowan and other colleges that are 
partnered with the apprentice programs. So if parents that are 
nervous about their kids not going to college, if they know 
about that maybe, if there is some way we can get that 
information out to people, because it is just as hard--now that 
I am finding out for folks in high school and the teachers in 
high school to direct kids in other pathways. I mean, they are 
starting to do some of that with the CTE schools, classes, and 
I think that is going to get better, but for years we left it 
go and, you know, I know of many growing up--many folks who 
went into the public school system went to Dobbins and other 
places where vocational school was the way they were going to 
go and they made a living, went into businesses. Many the 
plumber that is in business today in Philadelphia--or was in 
business, maybe their son is now--they went through those 
schools. So there is a lot of that, you know, the idea of a 
degree is something that we caused, you know, because I wanted 
my kids to have more than I did. You wanted yours--everybody 
did that, and so we drove the message that way. You have to go 
to school. You have to go to school. You know, I went into the 
Army, you know. That was pretty good school, but my brother 
forever and a day boxed my years because he wanted me to be the 
one coming out of a family of five kids that would go to 
college. So you know, there are different degrees of it, but I 
think the education system totally got into pushing towards 
college.
    The other thing that you talked about, think about what I 
just said about 200 applications given out and less than 100 
coming back. Some of that has to be because every program has a 
drug test. Almost every industry anymore has some sort of a 
drug test. You can't work by the rivers without having a drug 
test. Anything in transportation, refineries, any of that, you 
have to have a drug test to work there. I mean, it is one of 
the stumbling blocks that we have getting reentry folks to 
work, because of where they can and can't work. But the problem 
you are talking about is so, so extensive.
    We were fortunate enough in the Philadelphia building 
trades back when we had a lot of refineries and the 
transportation law went into effect, the gentleman who ran the 
Garfield refinery basically said to us one test and they are 
done for life. So we looked at that and said wow, you know, 
many, many thousands of our workers, that is where they make 
their living. How can you be done for life? We put together--
and I will tell you--I won't take credit, but many of the 
leaders on the labor side put this together with folks in the 
refineries to put together a testing program, but along with it 
an allied assistance program, which basically said we can help 
those folks who have a problem, because back then it might have 
been more beer than it was opioids, you know. It could have 
very well been. I am not sure. But we put a program together 
that helped people to get back into life and be back in the 
flow of life. And you are seeing more and more of that now 
because so many folks are overdosing, but it has a tremendous 
effect on our world out there. And not only the entry part, but 
folks who are already working. It is the scariest thing in the 
world to be 200 feet in the air with somebody who is spaced 
out, and I don't care if that is on Old Granddad or if it is on 
opioids. It is a scary thing. Same thing happens with somebody 
working on a machine with you.
    So it has a tremendous effect on what is going on, and it 
has a tremendous effect with our kids. And listen, I think the 
cure to that, besides helping people, is get more people to 
work, because I think people want to work. They don't want to 
sell drugs. That is my--maybe I will die with that thought, but 
that is what I think, and so the drugs do have a big part of 
it.
    But the other part of it, forcing kids to think about 
college, I think--and you know, I have had the opportunity to 
talk to Lincoln freshmen, other freshmen through Philadelphia 
Academies, and they don't know about what is out there in other 
worlds, and so we go to work on it.
    Mr. FITZPATRICK. Thanks, Pat. Ms. Herring?
    Ms. HERRING. Definitely something we have to work on.
    The career tracks that are talked about in the high schools 
and middle schools today for the most part, especially here in 
Bucks County, we are all talking 4-year college degrees. Even 
if they start at Bucks, the hope is that their students will 
matriculate into a 4-year college degree. So I think that is 
something that has to change in our society. We have to do some 
kind of a public awareness campaign to make sure that parents 
understand there really are good jobs in that middle skills 
range. About 65 percent of all our jobs require education 
beyond high school, but it is not an either `no-college' or 
`college' situation, which I think a lot of parents, that is 
the way they think. Either their child isn't going to college 
and is not going to have an opportunity for a good career, or 
they are going to go get their 4-year college degree. And there 
are so many family-sustaining jobs that only require a 
certificate program, an associate's degree, or some kind of 
industry-recognized credential that there are so many career 
paths for individuals who really don't want to go to college. 
How many start college and then don't finish? Frankly, I see a 
lot of those students. A lot of those people who started at a 
4-year college and decided that just wasn't where their head 
was at come into my programs, do very successful in those 
programs, come out earning a family-sustaining wage and the 
opportunity for really a lifelong career where they can 
continue building and training and moving their career along.
    The drug testing; we do drug testing before we allow 
anybody into our 12-week training programs. Many times we will 
have maybe--and we do it as a cohort, so we bring everybody in 
for the drug testing--we might have 15 or 16 individuals 
scheduled to come in for the drug testing. Maybe nine will show 
up. It is because they are self-selecting out before they even 
come to the testing because they know they are not going to 
pass. So we are missing a great deal of individuals because 
they know they are not going to pass a drug test. 
Unfortunately, the way to--as Mr. Eiding was saying, the way to 
really help individuals stay clean and help recovering addicts 
is to get them good employment where they feel like they are 
earning a decent living and having the skills to really be 
contributing to society. So we need to find a way to connect 
these skills programs and good jobs with the community that is 
suffering so much with the addiction.
    Obviously, there are no easy answers, but we do have a lot 
of individuals who come into our training programs who are 
recovering addicts and they have some time with the criminal 
justice system because of that, and thankfully our employers 
are very tolerant of individuals who have some kind of 
incarceration in their background and are able to look past 
that. But of course, they are not going to look past failing a 
drug test, and that is what we tell our students. And believe 
it or not, I have to remind everybody that marijuana is still 
illegal, because they seem to think they can smoke marijuana on 
the weekend, come for the drug test, and it is going to be 
okay. And that is not the case either, so there is a lot we can 
do in that realm.
    Mr. FITZPATRICK. Thanks, Ms. Herring.
    Ms. HERRING. Thank you.
    Mr. HALPER. I would certainly agree with you, Congressman, 
and my fellow panelists that you have hit on two of probably 
the most challenging issues that we face. In terms of 
addressing the stigma and how we educate parents and students 
that there are alternative career paths, it is very tough. It 
is similar to the whole soft skills issue in that it is a 
question of what gets measured and what shows kind of tangible 
success. So a high school can, you know, fairly easily measure 
how many kids are going on to a 4-year college, and there may 
be a perception of a prestige factor to try to get that number 
up. I don't know if you ever really get--move away from that. 
So I think all you can do is--or the primary way to start 
shifting the mentality is education and awareness, and putting 
the focus on what types of jobs and careers are these kids 
getting into after their post-secondary education. The 
challenge, of course, is that kids go off of high school--it is 
very difficult to measure how many kids from your high school, 
you know, are in family-sustaining jobs 10 or 15 years out. But 
if you can help coordinate a line of communication between the 
employer community in a region and the education community, and 
you have employers--and this does exist in pockets around 
Pennsylvania, and I would hope around the country, where 
employers are able to tell school districts, you know, here in 
the next 5 to 10 years are the job openings that we expect to 
have in our industry. Here are the salaries, and hopefully the 
salaries, you know, if what we are hearing is true, hopefully 
that will grab some people's attention, and sort of here is 
your path from how you get from A to B if you want your kid--or 
if you are talking to the student, if you want to have a good 
job after college, you want to make 50, 60, $70,000, you don't 
want to move back in with your parents--not that there is 
anything wrong with that, but you know, if you are trying to 
grab the attention of a kid, you know, that is a good sales 
pitch. Here is a path to do that. Success is not, you know, 
which 4-year college did you get into. Success--whether you are 
looking at college--4-year college or associate's degree or a 
trade school, success is a good job at the end of the day. To 
the extent that you can coordinate with education so that 
parents and students know what jobs are going to be out there 
and how much they are going to make I think slowly but surely 
maybe that mentality starts evolving.
    I know the new--Pennsylvania's new plan for complying with 
the Every Student Succeeds Act, ESSA, under U.S. Department of 
Education, includes a requirement for high schools to 
demonstrate that their students are attaining a certain level 
of career readiness. And of course, kind of the devil is in the 
details and these types of policies are only as good as the 
accountability and the follow up. But it was encouraging to see 
that schools are required to make sure their kids are aware of 
what careers are out there and how to put themselves in a 
position to get those jobs. I think it is incumbent upon the 
Congress and others at Department of Education to make sure 
that the states are adhering to these plans that they have laid 
out. A lot of them are--you know, look fantastic on paper, and 
I have no doubt that there is a real commitment to follow 
through on them, but there needs to be that constant follow up 
and accountability to make sure that that happens.
    I am not sure there is much I can add in terms of the drug 
issues within the workforce. I mean, we have heard both 
anecdotally and our survey results that it is a real and a 
serious problem. We have heard the same anecdotes of, you know, 
an open house for job openings and 50 people show up. At the 
beginning, they are told by the way, there is going to be a 
drug test and half or three-fourths, I have heard anecdotally, 
of the applicants leave at an announcement that there will be a 
drug test.
    So it is a serious problem. We also in Pennsylvania have a 
very serious--you know, incumbent workers, but in terms of when 
a worker--when an individual gets injured on the job, we have a 
very high rate of opioid use among injured workers that is sort 
of tied into this because it is tragic and many of these 
employees, once they go down that path, may never get back to 
that same job or may never get back onto a career path. So I am 
not sure I have great answers for how to address that in terms 
of from a workforce development perspective, but I think that 
as long as there is kind of awareness on it, we should all be 
doing our part to--just to make sure everyone is aware that 
there are some very real consequences to these types of life 
decisions.
    Mr. FITZPATRICK. Thank you, Mr. Halper. Yeah, two other 
issues that were also touched upon by Mr. Eiding, 
transportation and criminal justice reform I think are also two 
big pieces of the puzzle. I have met a ton of people in our 
community here who want to work who don't have a way to get to 
work. That also needs to be part of the discussion. Obviously 
this is a different environment than in an urban environment 
where public transportation may be more readily available. It 
poses a little bit more of a challenge in the suburbs as far as 
getting people access to mass transit and public 
transportation.
    And on criminal justice reform, well over 80 percent of 
people who are currently inmates will be released at some 
point, and we need to think about that. What are we doing in 
the prison system to prepare these people to become 
contributing members of society while they are serving?
    Mr. Evans, do you have any further questions, or----
    Mr. EVANS. No further questions, Mr. Chairman.
    Mr. FITZPATRICK. Does the panel want to comment on either 
of those two issues?
    Mr. HALPER. I guess I would only add on in terms of 
transportation that, you know, in Pennsylvania we were very 
active partners, along with the organized labor community, on 
Act 89. This was comprehensive transportation legislation a few 
years ago. I think it was a great example of how an 
infrastructure--a large scale by Pennsylvania's standards--but 
how a large scale infrastructure package can move through on a 
fairly bipartisan basis and get enacted into law. It was a 
combination of, you know, the PA Chamber endorsed a tax 
increase, which is something that someone in my position does 
not say very often, but in that case we thought it was 
appropriate. It was a user fee that is directed specifically to 
those intended purposes. It was combined with other reforms 
that helped projects, you know, move more quickly and helped, 
you know, make more bang for the buck in terms of those 
dollars.
    So hopefully at the federal level, as I know, and maybe 
this isn't under the jurisdiction of the Small Business 
Committee, but as you are all grappling with a potential 
infrastructure package and during this session, you know, I 
would love to think you could look to Pennsylvania as an 
example of how you can get something done.
    Ms. HERRING. Yeah, I would like to comment on the 
transportation issue, because it is all wrapped up with each 
other. We have people coming out of our prison systems who 
don't have a valid driver's license because they don't have 
access to it because they were arrested for DUIs and they have 
no way of getting to work. So there is no--and without public 
transportation in our county, there is no solution for them. 
They need to be able to get back on the horse, get back to 
work, and start earning some money so that they don't fall back 
into their old ways and maybe get back into selling drugs or 
doing other things that they were doing that got them in 
trouble in the first place. And we do find that the 
transportation issue is huge among students that we are looking 
at to bring into our programs, because that is one of our 
requirements. Thank you.
    Mr. EIDING. So again, it is a subject matter that comes in 
different levels and degrees, and I relate to the passage of 
the transportation bill we did in Pennsylvania. A fellow by the 
name of Rob Wonderling, who is an associate, I think, of the 
Chamber who I remember walking into some of the offices in 
Harrisburg with the labor and the head of the Chamber about an 
issue that is not special interest, and they just kind of sat 
back and said wow. I think there is going to be more of that, 
quite honestly. I really think there could be.
    Another example, more directly the extension of the SEPTA 
lines into King of Prussia. There is a lot of yang and yo and 
yang and yo. I look at it from Philadelphia, how many of our 
folks who need jobs could get to those jobs? There are a lot of 
jobs there and they are not great jobs maybe, but they are 
family-sustaining jobs. If people can get there, they could do 
those jobs.
    Another example is Philadelphia schools again. I have been 
beating up on them. I guess they will be coming after me, but 
there's no driver's ed. So even the folks who want to go into a 
trade, you know, the Philadelphia Building Trades is a minimum 
five counties, and then you go into New Jersey, many of them go 
up to Harrisburg, some to the State of Delaware. And you know, 
as I describe to people, and they say why is it so important to 
have a driver's license and vehicle? Well if you are working on 
a Comcast job and your employer comes down and says look, I 
need you in Royersford, Pennsylvania tomorrow, that is where 
you got to be. There are not too many buses that you can get to 
Royersford from, you know, some place in Philadelphia.
    So transportation is a big issue. We try to find on our 
Philadelphia Works, we are trying to see where we--in some jobs 
that are location to location that maybe we can get funding for 
transportation. Again, back to--the funding is so important 
that we get, you know, you folks that keep it going, because 
these are areas where we could do that.
    I know one of our--one of the things we are working on now 
is going to employers like SEPTA and others, you know, UPS, and 
find out what we can to do kind of pre-school their possible 
employer so we can talk to them, put some money in to talk to 
them about soft skills, talk to them about, you know, you get a 
job here, you got to be there every day, that kind of thing. Do 
some--even go as far as pre-drug testing, you know, and I know 
the young lady from SEPTA said well we do that already, and 
what we said well is we know that, but we want to help you. We 
want to send the folks that are even more ready. And so we had 
this dialogue, and quite honestly, there is going to be another 
follow up meeting so the HR folks there see some value to 
Philadelphia Works being able to help with that.
    And those kinds of monies that we get, if we put our mind 
and thoughts into it, there are a lot of folks we can help. 
Some of it certainly is customized training if we have 
collaboration, but how to get the people to work is a big deal. 
I mean, if the jobs are not right in the city of Philadelphia, 
it is pretty tough for somebody to get to work if they don't 
have the wherewithal, so it really has a big part. There are so 
many pieces to it, you know, and I think it applies to stuff at 
all levels of employees--employers, rather, and I think the 
biggest challenge we have with certainly the bigger employers, 
because they already have their HR system. They don't want to 
break it down to workforce investment, but the middle size and 
small employers I think have a great advantage there for them 
if we could keep this workforce training flowing to really be 
able to build up the workforce, and maybe entice other people 
to come into our area to build their companies.
    Mr. FITZPATRICK. Thank you, Mr. Eiding.
    Mr. Evans, did you have anything further?
    Mr. EVANS. No, thank you.
    Mr. FITZPATRICK. Okay. I want to thank the panel for your 
time today, and I want to let you know what you are doing today 
is a very, very big public service because everything that you 
share with us gets entered into the Congressional record. And 
we also--Dwight and I take this back to our Committee to help 
us develop policy in all these areas, because I think it is--
the good part about these collaborative discussions and hearing 
from all three of you, which are all three big pieces to the 
puzzle, is we understand how interconnected so many of these 
pieces are. Criminal justice reform, the issues of addiction, 
the issues of transportation, the issues of education, talking 
about driver's ed., right, I mean, not many people realize 
that, and that is important. It is important for us to know and 
to think about as we sort of craft solutions.
    I want to encourage all three of you to maintain the lines 
of communication with us. As you see areas of opportunity where 
myself and Mr. Evans can generate a legislative fix or a policy 
change, that can help us advance the ball as far as getting a 
lot of these jobs filled. You are doing a tremendous service, 
and I also want to thank Martin Williams of the Boilermakers. 
Sir, thank you for opening your facility to us. You have been a 
great partner as well.
    We are going to close the hearing, and I also want to thank 
my colleague, Mr. Evans, for joining us today. My hometown of 
Levittown, thanks for coming here today, and I ask unanimous 
consent that members may have 5 legislative days to submit 
statements and supporting materials for the record. Without 
objection, so ordered.
    This hearing is adjourned. Thank you all for being here 
today.
    [Whereupon, at 12:49 p.m., the Committee was adjourned.]
    
                   A P P E N D I X


    TESTIMONY OF PHILADELPHIA COUNCIL AFL-CIO PRESIDENT PATRICK 
J. EIDING TO THE HOUSE COMMITTEE ON SMALL BUSINESS 2/26/2018

    Good Morning and thank you for the opportunity to discuss 
Workforce Development.

    My name is Pat Eiding and I am the President of the 
Philadelphia Council AFL-CIO--representing 150,000 working 
people.

    I am proud to say that I have been on the board of 
Philadelphia Works Inc. (PWI) since 2002 and am currently on 
the Executive Committee. I also have the pleasure of serving on 
the board of the Pennsylvania Workforce Development Board and 
as the only labor person on the board of National Association 
of Workforce Board (NAWB). NAWB's main role in D.C. is to lobby 
for jobs and the money to fund Workforce Boards across the 
Country.

    Since the focus of this hearing is on Workforce 
Development, I must begin by requesting that you and your 
colleagues in both chambers continue to fund the Workforce 
Innovation and Opportunities Act (WIOA), I also would ask that 
you maintain the conditions for Pell grants that allow for the 
ability to benefit without the need to have a high school 
diploma before you use a Pell grant. (ie: community college and 
other training programs)

    Programs: Programs that are Pell for skill development in 
short term programs. Also, I would ask that we maintain the 
focus on Registered Apprentice Programs. Additionally, we will 
need more money for Adults For infrastructure jobs training.

    One of my biggest concerns is the level of proficiency in 
math and readings our students are graduating with. In some 
cases, even graduates of CTE schools are at a sixth or seventh 
grade level for both reading and math. We need to increase 
education funding for these programs to better prepare these 
students for graduation.

    The Building Trades have some of the best training programs 
in the Country, but our kids can't qualify for the Apprentice 
Program. This is also a problem at the Shipyard Apprentice 
Program.

    At seventh grade math and reading a young person would not 
be able to keep up with the training needed to become a journey 
person.

    Finally, we need more engagement and commitment from 
employers both large and small so that we can perform the 
special training needed to be their employees such as 
internships and apprenticeships. Where we have meaningful 
collaboration, we create life-sustaining jobs.

    Areas of concern should include re-entry persons and 
veterans: Helping to fund the very successful Helmets to 
Hardhats program is a good example.

    Thank you for this opportunity and I offer any help I can 
be to foster economic development.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Good morning, Representative Fitzpatrick, Representative 
Evans, and audience members. Thank you for the invitation to 
provide testimony on this very important topic.

    The Center for Workforce Development at Bucks County 
Community College (Bucks) works with local businesses to 
provide customized training to build the skill level of their 
current employees. Our offerings include a large range of 
topics designed to assist the individual company in meeting 
their specific needs. Topics include industrial safety, 
computer applications, Lean Six Sigma, executive coaching and 
leadership academies, to name just a few. These programs help 
local businesses thrive by providing a highly skilled 
workforce. We train approximately 2,800 incumbent workers a 
year, and partner with over 50 companies, with 80% estimated to 
be small businesses. Our clients have access to WEDnetPA* 
funding through the state, as well as incumbent Worker raining 
funding through the Bucks County Workforce Development Board. 
Both are excellent programs that give preferential treatment to 
small businesses, and bring significant value to our business 
partners.

    *WEDnetPA is a grant program created by the Department of 
Community & Economic Development, (DCED) and made available 
through the Workforce and Economic Development Network of 
Pennsylvania. This program provides funding for qualified 
employers to train new and existing employees, and allows 
companies to stay competitive while keeping employee skills 
current and relevant. Bucks is one of 27 partners across the 
state of Pennsylvania awarding between 35 - 50 companies in 
Bucks County funding between $250,000 - $400,000. Last year (FY 
16-17) Bucks awarded 33 contracts, of which 26 were small 
businesses.

    The Center for Workforce Development also works closely 
with businesses to help mitigate the shortage of skilled 
workers in manufacturing. Working in partnership with the 
County of Bucks, the Bucks County Workforce Development Board 
and PA CareerLink<SUP>TM</SUP>, the college has developed and 
implemented pre-apprenticeship programs designed to upskill and 
retrain un- and underemployed individuals to learn new skills 
to fill the ever growing gap for well trained entry level 
employees for manufacturing jobs. As retirements loom large for 
businesses, more well-trained entry level employees will be 
necessary to feed to manufacturing businesses to keep them 
thriving in our local economy.

    Bucks County expects to see nearly 3,000 new jobs in 
advanced manufacturing in the next 10 years. This, coupled with 
impending retirements of baby-boomers, make it vitally 
important to provide accessible means for entry into the 
industry sector. Most of our manufacturing partners are small 
businesses. We use federal funding that flows through the BC 
Workforce Development Board and County of Bucks to train entry-
level workers and feed them into these companies.

    The College, in collaboration with the County of Bucks and 
local manufacturing companies developed and launched the 
Metalwork Training Program in 2014. The Program prepares 
students with the skills to fill entry-level machining 
positions for manufacturers in the region. As a result of the 
success of this program, and in response to employer demand, 
the college launched the Industrial Maintenance Training 
Program in October 2017. This program prepares students for 
entry-level jobs as electro-mechanical technicians in the 
industrial maintenance field. Both programs provide 
opportunities for students to earn industry-recognized 
credentials including OSHA 10, Forklift Safety, and NIMS, and 
both programs put a great deal of emphasis on employability 
skills training and placement into good-paying jobs. The 
Metalwork training takes place in Bristol, and the Industrial 
Maintenance program trains out of the BC Public Safety Center 
in Doylestown.

    Over the past three years, we have trained approximately 
170 un- and under-employed students in industrial skills and 
have a job placement rate of over 92%. The average starting 
wages are between $15 - $18/per hour, plus benefits, with the 
opportunity to earn $40 - $50,000 per year within the first 
couple of years of employment. This high success rate is due to 
our robust candidate vetting and testing process, the ongoing 
dedication of excellent industry experts as our instructors, 
employability skills training, and the efforts of a dedicated 
job developer. Once employed, students have the opportunity to 
continue their training by entering OJT positions, 
apprenticeship programs and/or continuing their education at 
Bucks.

    Manufacturing is alive and well in Bucks County and the 
demand for skilled workers is higher than ever. In fact, our 
recent Metalwork cohort graduated 11 students, and our partner 
manufacturing companies had 33 job openings, providing for a 
competitive job market favoring skilled job seekers. Bucks is 
serving the business community by building the workforce 
pipeline and connecting a new generation to the high-priority 
occupations in manufacturing. Approximately 28% of our students 
are under the age of 24, 50% under 30, and our average age is 
32.

    The Center for Workforce Development is continuing its 
efforts to close the skills gaps in manufacturing by expanding 
its 12-week Metalwork Training Program to serve the Upper Bucks 
population of job seekers and manufacturing businesses. Through 
a collaboration with the Upper Bucks County Technical School, 
the Upper Bucks Chamber of Commerce, and the Quakertown Area 
Planning Committee, we are on track to begin our first cohort 
in Upper Bucks on February 26, 2018. The college is applying to 
the County for CDBG funding to support our efforts beyond this 
pilot cohort.

    In addition, the college is collaborating with the Bucks 
County Workforce Development Board to apply for the state's 
Strategic Innovation Grant to provide a Manufacturing Career 
Pathways Program to in-school and out-of-school youth between 
the ages of 18 and 24. The demand in manufacturing is due, in 
large part, to the aging of the skilled workforce coupled with 
the fact that for generations, there has been little interest 
in promoting this field as a viable career option. It is 
imperative that high school students and their parents learn 
more about these opportunities to help them make smart choices 
for their futures and build the workforce pipeline. The College 
will leverage the success of its industry programming into 
working with our local high schools to begin educating in-
school youth and recent graduates between the ages of 18 and 24 
on the benefits of a career in manufacturing. Our framework 
will be similar to our manufacturing programs but geared more 
towards students that are still unsure and looking to gain 
exposure to the industry. The Manufacturing Career Pathways 
Program will be a coursework introduction to manufacturing 
partnered with an internship. This will give students a 
foundational understanding of manufacturing while introducing 
them to career options in the field. Students would begin with 
classes at the Lower or Upper Bucks Campus. Once they have 
successfully completed the coursework they would then 
transition into an internship with one of our pilot companies. 
The Manufacturing Career Pathways program will provide a new 
opportunity for targeted youth to enter the Manufacturing 
sector.

    As with all workforce development programs, our programs' 
success begins and ends with the symbiotic relationship we have 
built with the manufacturing business community. Our business 
partners participate in several ways. They assist with 
developing and refining the curriculum, vetting training 
candidates, offering company tours, and hiring our graduates. 
Our business partnership has grown from an original 20 
manufacturers, to over 70, spanning Bucks and surrounding 
counties. Media articles, industry partnerships, and word of 
mouth have contributed to the rapid increase.

    The College is very thankful for the federal programs that 
have provided funding to train individuals who most likely 
would not have been able to afford the classes. The training 
programs are strongly supported by the County of Bucks, through 
past CDBG funding, and by the Bucks County Workforce 
Development Board through individual Training Account funding 
(ITAs) and currently, a US Department of Labor, Workforce 
Innovation Fund (WIF) Grant. The WIF grant will support 
training through September 2018, and the college is actively 
pursuing other funding sources that will enable us to continue 
to serve job seekers and our manufacturing partners.

    In addition, in 2017 the college in partnership with Bucks 
County Workforce Development Board, was awarded the PA Tech 
Grant that will allow the college to upgrade existing 
manufacturing equipment in order to build capacity at our 
Advanced Manufacturing Training Center in Bristol.

    Our students come to us facing barriers to employment, and 
many of them are dealing with personal challenges that have 
limited their ability to find financial stability, such as 
addiction, homelessness, incarceration, single parenthood, and 
disability. The College's pre-apprenticeship programs have 
truly been life-transforming opportunities for these 
individuals. Supportive family and friends attend our 
graduation ceremonies, and it is humbling to receive their 
heartfelt thanks for giving their loved ones a chance to be a 
part of something that will forever change their lives.

    Continued funding of Bucks County Community College's pre-
apprenticeship training programs is critical to sustaining our 
work that has brought successful outcomes to so many of our 
residents, while at the same time closing a skills gap that is 
essential for the continued success of our small manufacturing 
businesses in the region.

    Thank you for the opportunity to testify at this morning's 
hearing. I would be happy to answer any questions.

    Respectfully submitted,

    Susan C. Herring
    Interim Executive Director, Center for Workforce 
Development
    Bucks County Community College
    2/22/2018
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Chabot, Ranking Member Velazquez, Congressman 
Fitzpatrick and other members of the Small Business Committee. 
My name is Alex Halper and I am Director of Government Affairs 
for the Pennsylvania Chamber of Business and Industry. The PA 
Chamber is the largest, broad-based business advocacy 
association in Pennsylvania. We represent employers of all 
sizes, crossing all industry sectors throughout the 
Commonwealth. Thank you for the opportunity to testify today 
regarding workforce development and closing the skills gap.

    Pennsylvania employers face competition from businesses in 
other states and, increasingly, around the world. While the 
Commonwealth has tremendous assets--abundant natural recourses, 
key geographic advantages, excellent higher education 
institutions, etc--being successful in today's global economy 
depends on Pennsylvania developing and harnessing the talent, 
skills and capacities of its citizens. Students must be 
prepared for careers or further education and workers must be 
able to adapt and continually acquire the training and skills 
required in the modern workplace. Unfortunately, feedback from 
PA chamber members and employers around the Commonwealth has 
made it clear we are falling short of these goals.

    The PA Chamber conducts an annual survey of employers, both 
PA Chamber members and non-members, focusing on the 
Commonwealth's economic climate. The most recent survey of 654 
Pennsylvania employers was conducted in August 2017 and several 
questions focused on issues related to workforce3. When asked 
to rate the quality of the workforce in Pennsylvania to meet 
the business community's demand for skilled or trained workers, 
a plurality of respondents answered just ``Fair'' (41 percent) 
and far more chose the worst response of ``Poor'' (16 percent) 
than those who responded ``Excellent'' (just five percent). 
When asked for the most common problems experienced when 
interviewing and considering job applicants and provided 13 
answers from which to choose, the two most popular responses by 
far were ``Lack of soft skills'' (35 percent) and ``Lack of 
hard skills'' (34 percent). Examples of ``soft skills'' were 
enumerated as work ethic, communication skills, punctuality, 
dependability and team work; and ``hard skills'' were described 
as training, education and certifications.

    About a year earlier in 2016, the PA Chamber conducted a 
survey specifically focusing on Pennsylvania employers' 
experiences and expectations concerning the workforce. 428 
Pennsylvania employers--PA Chamber members and non-members--
were contacted in early April 2016 and their responses painted 
a daunting picture.

    A combined 52 percent of respondents described it as very 
or extremely difficult to recruit qualified candidates, with 
the appropriate skills, training and/or education to fill the 
workforce needs of their company. Most believed finding 
qualified applicants had gotten more difficult over the last 
five years (61 percent) and most also believe it will become 
more difficult over the next five years (57 percent). Only two 
percent of respondents believe it will get easier.

    Feedback from this survey is consistent with anecdotal 
insight from employers and much of the public discussion on the 
skills gap and career readiness for those entering the 
workforce: inadequate ``soft skills'' is a significant 
challenge and just as common among job applicants, if not more 
prominent, than those lacking ``hard skills''--i.e. specific 
training or credentials. Employers across all industry sectors 
describe difficulty recruiting applicants that exhibit 
sufficient ability to think logically, work collaboratively 
with others, behave properly, effectively communicate, etc.

    While these questions in the survey helped quantify the 
extent of the workforce challenges employers are facing and 
captured the sentiment of Pennsylvania's business community, 
the results were not surprising: they were consistent with 
similar national surveys and individual insight PA Chamber 
personnel hear from our members all over the Commonwealth. 
Responses to and analysis of the next series of questions, 
however, were somewhat more enlightening and, we hope, 
instructive for how the business community can and should lead 
efforts to address the skills gap.

    Survey participants were asked about internal activities 
and investments in workforce development and job training--
including internships, apprenticeship programs, internal 
training, mentoring and partnering with local high schools and 
trade schools. We then compared these responses with an earlier 
question that simply asked employers the extent to which they 
were experiencing workforce challenges. The analysis showed a 
clear correlation between employers who invest resources and 
time to workforce development programs and activities and those 
who are more successful addressing their own workforce needs. 
In other words, employers should not consider devoting time and 
resources to addressing workforce challenges as simply 
community service, but as a key piece of their company strategy 
to accommodating their own internal workforce needs.

    This is the message the PA Chamber has attempted to deliver 
to our members and spread to employers throughout the 
Commonwealth: the business community must take the lead in 
workforce development and addressing the skills gap. We can 
support smart public policy and encourage educational 
institutions and members of the public to be close, 
constructive partners--but ultimately it is incumbent on 
Pennsylvania employers to make the commitment and do the work 
necessary to ensure they have a qualified workforce today and 
in the future.

    The one caveat is the aforementioned deficit of ``soft 
skills'' among those entering the workforce. Anecdotally, we 
hear from employers who are committed to or interested in 
establishing or expanding job training programs but are 
frustrated by a dearth of potential participants they view as 
possessing prerequisite communication skills or behavioral 
attributes to qualify. Employers may be willing to invest more 
in workforce development but may not have the inclination, or 
think they have the ability, to teach these basics. 
Accordingly, attention to soft skills development must remain a 
priority even as policymakers focus on specific job training 
and making tangible progress on facilitating career readiness.

    Public schools should be encouraged and provided strategies 
to better incorporate soft skills development into existing 
curriculum. Also critically important is facilitating youth 
employment. The prerequisite skills and work ethic sought by 
employers--reporting on time, reliability, following 
instructions, etc.--are attributes often acquired and honed as 
youth working part-time and during the summer. Unfortunately, 
youth unemployment remains a serious problem throughout 
Pennsylvania and the country. According to the U.S. Department 
of Labor Bureau of Labor Statistics, youth unemployment in 
January 2018 was an unacceptably high rate of 13 percent; and 
specifically African American youth unemployment was over 24 
percent. Public policy should encourage and allow employers to 
create new and maintain existing part-time, lesser-skilled jobs 
that are often filled by the 16-19 year old demographic.

    The PA Chamber also supports smart public policy that 
compliments and encourages employer efforts related to 
workforce development and job training. We urge lawmakers to 
keep in mind the following principals and suggestions when 
considering legislation:

          - Regularly and thoroughly review existing workforce 
        development programs to make sure programs are 
        achieving intended objectives at an acceptable cost. 
        Reviews should be publicized, include a cost-benefit 
        analysis and strive to reduce fragmentation and provide 
        more efficient delivery of services.

          - Focus locally and engage the business community to 
        best determine current and long-term community 
        workforce needs, tailor local programs accordingly and 
        create nimble systems that can react in a timely way to 
        market demands.

          - Expand and improve educational options in the 
        technical fields and others that require some level of 
        post-secondary education to help job-seekers meet the 
        requirements for employers in the economy of today and 
        in the future. And help eliminate bias against 
        vocational education.

          - Encourage institutions of higher education to offer 
        courses that align with workforce needs, such as online 
        programs, that are structured to best facilitate 
        participation from non-traditional students.

          - Help promote public-private partnerships and 
        private sector educational and training programs, such 
        as apprenticeships and other innovative approaches to 
        providing workplace experience and skill attainment 
        opportunities.

    One bill pending in Congress that is consistent with these 
principals is H.R. 2353, the Strengthening Career and Technical 
Education for the 21st Century Act, which was introduced by 
Pennsylvania's own, Rep. Glenn Thompson, and passed the House 
by voice vote last year. This bill would reauthorize Carl D. 
Perkins Career and Technical Education Act of 2006 and achieve 
key objectives of aligning CTE programs to the needs of local 
labor markets; support collaboration between educational 
institutions and employers; increase student participation in 
work-based learning opportunities; and promote the use of 
industry recognized credentials and other recognized 
postsecondary credentials. We thank the House for passing this 
bill and urge you to work with your Senate colleagues to send 
this legislation to the President.

    Thanks again for the opportunity to testify. I'm happy to 
answer any questions.

                                 <all>
</pre></body></html>
